Office of Inspector General


           SEMIANNUAL
            REPORT TO
            CONGRESS


For the Period October 1, 2011 through March 31, 2012




                  Report No. 46
               



  “Democracy demands wisdom and vision in its citizens”
National Foundation on the Arts and Humanities Act of 1965
THE OFFICE OF INSPECTOR GENERAL

           serves American taxpayers
     by investigating reports of waste, fraud,
  mismanagement, abuse, integrity violations or
   unethical conduct involving Federal funds.



          To report any suspected activity
involving NEH programs, operations, or employees

              Call the OIG Hotline

                1 (877) 786-7598



                Mailing Address

  Office of Inspector General — Hotline
 National Endowment for the Humanities
    1100 Pennsylvania Ave. N.W., Room 419
           Washington, DC 20506


                      Fax

                (202) 606-8329


            Electronic Mail Hotline

                  oig@neh.gov




  Government employees are protected from reprisal

            Caller can remain anonymous

              Information is confidential
                                                   May 10, 2012

Honorable James Leach
Chairman, National Council on the Humanities
National Endowment for the Humanities
Washington, DC 20506

Dear Chairman Leach:

I am pleased to provide you with the Office of Inspector General’s Semiannual Report to Congress
for the first half of the fiscal year 2012. This report is submitted in accordance with the Inspector
General Act of 1978, as amended. Section 5 of the Act requires that you submit this report, with
your Report of Final Action, to the appropriate committee or subcommittee of the Congress within
30 days of its receipt. The report provides a summary of the activities of the Office of Inspector
General (OIG) during the six-month period ended March 31, 2012.

During the reporting period, we completed two internal reviews; one internal inspection; one exter-
nal audit; one pre-award accounting system survey; ten desk reviews of Office of Management and
Budget (OMB) Circular A-133 audit reports, as issued by non-Federal auditors concerning NEH
grantees; and one quality control review involving an audit of an NEH grantee, which was conduct-
ed in accordance with OMB Circular A-133. We also issued letters to seven recipients of NEH
challenge grants, advising them of the applicability of the special provision set forth in OMB Circu-
lar A-133 concerning Federal awards for endowment funds. Lastly, the audit of the NEH financial
statements for fiscal year 2011 was completed during the current reporting period, which was moni-
tored by the OIG.

In our investigations program, one matter was open as of the beginning of the reporting period. We
received 9 “Hotline” contacts during the period, and four matters remain open as of March 31, 2012.

I greatly appreciate your support and look forward to working with you and all agency staff to fur-
ther our common purpose of assuring the effectiveness, efficiency and integrity of NEH’s vital con-
tributions to the humanities in the United States.

                                                     Sincerely,



                                                     Laura Davis
                                                     Acting Inspector General
                                                   TABLE OF CONTENTS


         LETTER TO THE CHAIRMAN

         EXECUTIVE SUMMARY………………………..………………………………………..                                                                                      1

         THE NATIONAL ENDOWMENT FOR THE HUMANITIES…… ...................................                                                    2

         THE OFFICE OF INSPECTOR GENERAL........................................................................                            2

         AUDIT AND REVIEW ACTIVITIES .................................................................................                      3

         INVESTIGATIVE ACTIVITIES …………………………………………………………                                                                                   11

         OTHER ACTIVITIES ..........................................................................................................       13

         TABLE I - REPORTING REQUIREMENTS…………………………………………… ..                                                                              15

         TABLE II - INSPECTOR GENERAL-ISSUED REPORTS................................................                                       16
         WITH QUESTIONED COSTS

         TABLE III - INSPECTOR GENERAL-ISSUED REPORTS WITH ...................................                                             16
         RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

         GLOSSARY OF AUDIT TERMINOLOGY ........................................................................                            17

         PEER REVIEW RESULTS………………………………………………………………...                                                                                Appendix A




NEH OIG Semiannual Report                                                      i                                                           March 31, 2012
                                          EXECUTIVE SUMMARY

         This has been a busy yet productive reporting period for the National Endowment for the Humanities
         (NEH) Office of Inspector General (OIG). I sincerely thank the OIG staff for their unwavering dedication
         and commitment to the mission of this office.

         We issued a report communicating the results of our inspection of the agency’s administration of the legis-
         lated matching requirement related to general operating support grants awarded to state humanities coun-
         cils. We made a recommendation to align certification requirements applicable to unreimbursed, allowa-
         ble expenditures incurred by regrantees for council-supported projects (i.e., regrantee cost-share) with the
         restricted certification requirements currently applicable to contributions raised by regrantees. NEH man-
         agement has not formally responded to our recommendation.

         We completed our first review pursuant to the Improper Payments Elimination and Recovery Act of 2010
         (IPERA), as prescribed by guidance issued by the Office of Management and Budget (OMB). We deter-
         mined that the NEH is compliant with the IPERA concerning fiscal year 2011.

         We continued to perform desk reviews of audit reports issued by non-Federal auditors pursuant to OMB
         Circular A-133. These reviews have revealed areas wherein recipients and independent public accountants
         (IPAs) are still lacking subsequent to the issuance of the Report on National Single Audit Sampling Pro-
         ject issued by the President’s Council on Integrity and Efficiency and the Executive Council on Integrity
         and Efficiency in June 2007 and efforts by the public accounting community to improve audit quality in
         response to the report. We also completed a quality control review (QCR) of IPA working papers associ-
         ated with the Single Audit of an NEH grantee. We concluded that the IPA generally met auditing stand-
         ards and OMB Circular A-133 requirements; however, the results of the QCR raised questions relative to a
         significant NEH award, therefore we planned a limited audit of the grant to expand testing for greater as-
         surance. The results of the limited audit will be included in the next semi-annual report.

         The OIG engaged the services of Leon Snead & Company (IPA) to conduct the annual audit of the NEH
         financial statements, as required by the Accountability of Tax Dollars Act of 2002. The OIG monitored
         the work of the auditors and examined audit working papers and the draft report to ensure compliance with
         the applicable requirements. For the seventh consecutive year, the NEH received an unqualified opinion
         on the audited financial statements for fiscal year ended September 30, 2011. No internal control deficien-
         cies or instances of noncompliance with applicable laws and regulations were noted by the IPA.

         Investigative efforts have been active over the past six months. OIG staff continues to work closely with
         the National Science Foundation OIG concerning one matter. Four additional matters were active as of
         the end of the reporting period.

         OIG staff participated on the Council of Inspectors General on Integrity and Efficiency (CIGIE) Grant Re-
         form Working Group, providing comments in response to the OMB Advanced Notice of Proposed Guid-
         ance entitled, Reform of Federal Policies Relating to Grants and Cooperative Agreements; Cost Principles
         and Administrative Requirements (Including Single Audit Act).




NEH OIG Semiannual Report                                    1                                               March 31, 2012
             THE NATIONAL ENDOWMENT FOR THE HUMANITIES
      In order to promote progress and scholarship in the humanities and the arts in the United States, Congress enacted
      the National Foundation on the Arts and the Humanities Act of 1965. This Act established the National Endow-
      ment for the Humanities (NEH) as an independent grant-making agency of the Federal government to support
      research, education, and public programs in the humanities. According to the Act, "The term 'humanities' in-
      cludes, but is not limited to, the study of the following: language, both modern and classical; linguistics; litera-
      ture; history; jurisprudence; philosophy; archaeology; comparative religion; ethics; the history, criticism, and
      theory of the arts; those aspects of social sciences which have humanistic content and employ humanistic meth-
      ods; and the study and application of the humanities to the human environment with particular attention to reflect-
      ing our diverse heritage, traditions, and history and to the relevance of the humanities to the current conditions of
      national life."

      The NEH is directed by a Chairman, who is appointed by the President and confirmed by the U.S. Senate, for a
      term of four years. Advising the Chairman is the National Council on the Humanities, a board of 26 distinguished
      private citizens who are also appointed by the President and confirmed by the Senate. The National Council
      members serve staggered six-year terms.

      Grants are awarded through four divisions - Research Programs, Education Programs, Preservation and Access,
      and Public Programs -- and three offices - Challenge Grants, Federal/State Partnership, and Digital Humanities.
      The divisions and offices also administer the We the People initiative.

      The NEH’s most recently launched initiative, Bridging Cultures, is designed to bridge both space and time to help
      American citizens gain a deeper understanding of their own varied cultural heritage, as well as the history and
      culture of other nations. This initiative encourages the exploration of ways in which cultures from around the
      globe, as well as the myriad subcultures within America’s borders, have influenced American society.




                             THE OFFICE OF INSPECTOR GENERAL
       The NEH Office of Inspector General (OIG) was established April 9,1989, in accordance with the Inspector
       General Act Amendment of 1988, (Public Law 100-504). In this legislation, Congress established Offices of
       Inspector General in several departments and in thirty-three agencies, including the NEH. The NEH Inspector
       General (IG) is appointed by the Chairman. The independence of the IG is an important aspect of the Inspector
       General Act. For example, the IG: cannot be prevented from initiating, carrying out, or completing an audit or
       investigation, or from issuing any subpoena; has access to all records of the agency; reports to the National
       Council on the Humanities through the NEH Chairman, and can only be removed by the National Council on the
       Humanities, which must give Congress 30 days notice of the reasons for the removal; and reports directly to
       Congress.

       The Act states that the OIG is responsible for (1) conducting audits and investigations; (2) reviewing legislation;
       (3) recommending policies to promote efficiency and effectiveness; and (4) preventing and detecting fraud,
       waste, and abuse in the operations of the agency. The IG is also responsible for keeping the Chairman and Con-
       gress fully and currently informed of problems and deficiencies in the agency’s programs and operations.

       The OIG staff consists of the Inspector General, Deputy Inspector General, two auditors, and a secretary. The
       OIG has a Memorandum of Understanding with the United States Treasury Inspector General for Tax Admin-
       istration detailing the procedures for the OIG to be provided legal services. Investigations are handled by the IG
       and an auditor.




NEH OIG Semiannual Report                                         2                                                    March 31, 2012
                                       AUDIT AND REVIEW ACTIVITIES

                                            LIST OF REPORTS ISSUED
       The OIG is responsible for external and internal audits. External efforts include on-site grant audits, limited scope desk
       audits, pre-award accounting system surveys, review of OMB Circular A-133 audit reports, and on-site quality control
       reviews of CPA workpapers. Internal efforts consist of audits, inspections, and reviews/evaluations of NEH
       administrative, programmatic, and financial operations. The OIG is also responsible for monitoring the work of the
       independent public accountant (IPA) that conducts the annual audit of the NEH financial statements as required by the
       Accountability of Tax Dollars Act of 2002, and examining the IPA’s audit workpapers and reports to ensure compli-
       ance with applicable requirements.

       Following is a list of reports issued by the OIG during this reporting period. The Inspector General Act of 1978, as
       amended, requires us to report on the "Total Dollar Value of Questioned Costs" (including a separate category for the
       “Dollar Value of Unsupported Costs”) and the "Dollar Value of Recommendations that Funds Be Put to Better Use",
       [see Tables II and III].


                                                                                   Report Number                      Date Issued

    INTERNAL AUDITS/REVIEWS/INSPECTIONS

    NEH FY 2011 Review of Internal Control in Accordance with the                   OIG-12-01 (IR)                     10/28/2011
     Federal Managers’ Financial Integrity Act (FMFIA)

    Final Audit Report                                                                    N/A                          11/08/2011
      NEH Financial Statement Audit ~ FY 2011

    NEH’s Compliance with the Improper Payments Elimination and                     OIG-12-02 (IR)                     03/14/2012
     Recovery Act of 2010 ~ FY 2011

    General Operating Support Grants: Cost-Share Inspection                          OIG-12-01 (I)                     12/19/2011


    EXTERNAL AUDIT

    Limited Audit — Filmmakers Collaborative                                       OIG-12-01 (EA)                      01/10/2012


    PRE-AWARD ACCOUNTING SYSTEM SURVEY

    The Dr. Haing S. Ngor Foundation                                                OIG-12-01 (TS)                     02/10/2012


    DESK REVIEWS

    Review of American Council of Learned Societies Challenge Grant                OIG-12-01 (DR)                      01/17/2012

    Review of Chemical Heritage Foundation Challenge Grant                         OIG-12-02 (DR)                      01/17/2012

    Review of Minneapolis Institute of Arts Challenge Grant                        OIG-12-03 (DR)                      01/17/2012

    Review of New Bedford Whaling Museum Challenge Grant                           OIG-12-04 (DR)                      01/17/2012

    Review of Southern Ute Cultural Center and Museum Challenge                    OIG-12-05 (DR)                      01/17/2012
     Grant

    Review of Walters Art Museum Challenge Grant                                   OIG-12-06 (DR)                      01/17/2012


NEH OIG Semiannual Report                                              3                                              March 31, 2012
                                      AUDIT AND REVIEW ACTIVITIES

                                             LIST OF REPORTS ISSUED
                                                                         Report Number          Date Issued

       DESK REVIEWS (con’t.)

       Review of Yakima Valley Museum Challenge Grant                    OIG-12-07 (DR)          01/17/2012

       Desk Review of the Single Audit Report for Year Ended             OIG-12-08 (DR)          01/25/2012
        October 31, 2009 — Arkansas Humanities Council

       Desk Review of the Single Audit Report for Year Ended             OIG-12-09 (DR)          01/25/2012
        October 31, 2010 — Kansas Humanities Council

       Desk Review of the Single Audit Report for Year Ended             OIG-12-10 (DR)          01/25/2012
        October 31, 2009 — New York Council for the Humanities

       Desk Review of the Single Audit Report for Year Ended             OIG-12-11 (DR)          01/27/2012
        October 31, 2009 — Hawaii Council for the Humanities

       Desk Review of the Single Audit Report for Year Ended             OIG-12-12 (DR)          01/31/2012
        October 31, 2009 — Nevada Humanities, Inc.

       Desk Review of the Single Audit Report for Year Ended             OIG-12-13 (DR)          02/03/2012
        December 31, 2009 — Humanities Washington

       Desk Review of the Single Audit Report for Year Ended             OIG-12-14 (DR)          03/16/2012
        October 31, 2010 — Maryland Humanities Council

       Desk Review of the Single Audit Report for Year Ended             OIG-12-15 (DR)          03/21/2012
        October 31, 2009 — Humanities Council of Washington, DC

       Desk Review of the Single Audit Report for Year Ended             OIG-12-16 (DR)          03/30/2012
        October 31, 2010 — Massachusetts Foundation for the Humanities

       Desk Review of the Single Audit Report for Year Ended             OIG-12-17 (DR)          03/30/2012
        October 31, 2010 — Louisiana Endowment for the Humanities



       QUALITY CONTROL REVIEW

       Quality Control Review of KPMG LLP — FY 2010 Single Audit         OIG-12-01 (QCR)         03/06/2012
        of the Asia Society



       SINGLE AUDIT ACT REVIEWS

       OMB Circular A-133 Reports                                        —- See Page 9     —-




NEH OIG Semiannual Report                                         4                             March 31, 2012
                                  AUDIT AND REVIEW ACTIVITIES

                                     SUMMARY OF REPORTS ISSUED

                                  INTERNAL AUDITS/REVIEWS/INSPECTIONS

                                     NEH FY 2011 Review of Internal Control
                                               In Accordance with
                               The Federal Managers’ Financial Integrity Act (FMFIA)
                                         October 28, 2011; OIG-12-01 (IR)

      The Federal Managers’ Financial Integrity Act (FMFIA), P.L. 97-255, Office of Management and Budget
      (OMB) Circular A-123, Management Accountability and Control, and OMB Circular A-127, Financial Man-
      agement Systems establish specific requirements for management control. FMFIA further requires each exec-
      utive agency head, on the basis of an evaluation conducted in accordance with applicable guidelines, to pre-
      pare and submit a signed statement to the President assuring that the agency’s systems of internal accounting
      and administrative control fully comply with the requirements established in FMFIA. Internal NEH direc-
      tives require each Division/Office Director to report on the status of controls against waste, fraud, and abuse
      within their area of responsibility. Managers of NEH’s various financial systems (budget formulation, ac-
      counting, cash management, information management, procurement, property control, grant administration,
      audit, or personnel) are also responsible for (a) ensuring that systems are established, maintained, improved,
      and reviewed; and (b) reporting any exceptions to the NEH Chairman.

      We made a limited review of the evaluations conducted by NEH Division/Office Directors. Based on our
      limited independent assessment of the process, the OIG concluded that the NEH management control evalua-
      tion was conducted in accordance with OMB and FMFIA requirements. Further, based on the results of au-
      dits, inspections, and investigations conducted by the OIG during fiscal year 2011, we concurred with the
      assertion that the NEH had no material weaknesses during the reporting cycle.


                                                Final Audit Report
                                  NEH Financial Statement Audit ~ Fiscal Year 2011
                                                 November 8, 2011

      The Office of Inspector General (OIG) engaged Leon Snead & Company, P.C., (IPA) to perform the Fiscal
      Year 2011 Financial Statement Audit as required by the Accountability of Tax Dollars Act of 2002. The OIG
      was responsible for 1) evaluating the qualifications and independence of the auditors; 2) reviewing the audit
      approach and planning; 3) monitoring the work of the auditors; 4) examining audit workpapers and reports to
      ensure compliance with Government Auditing Standards, OMB Bulletin No. 07-04, Audit Requirements for
      Federal Financial Statements (as amended), and the Financial Audit Manual issued jointly by the Govern-
      ment Accountability Office (GAO) and the President’s Council on Integrity and Efficiency (PCIE); and other
      procedures deemed necessary to oversee the contract and the audit.

      The IPA expressed an unqualified opinion on the NEH financial statements as of and for the years ended Sep-
      tember 30, 2011 and 2010. Fiscal year 2011 marks the seventh year that NEH has received an unqualified
      opinion. The IPA’s testing of internal control identified no deficiencies considered to be material weaknesses
      and the results of the IPA’s tests of compliance with certain provisions of laws and regulations disclosed no
      instances of noncompliance required to be reported. There were no prior year unresolved findings.




NEH OIG Semiannual Report                                    5                                             March 31, 2012
                                 AUDIT AND REVIEW ACTIVITIES

                              INTERNAL AUDITS/REVIEWS/INSPECTIONS (con’t.)

        NEH’s Compliance with the Improper Payments Elimination and Recovery Act of 2010 ~ FY 2011
                                     March 14, 2012; OIG-12-02 (IR)

The Improper Payments Elimination and Recovery Act of 2010 (IPERA) requires the head of each agency to periodi-
cally review and identify all programs and activities it administers that may be susceptible to significant improper
payments, based on guidance provided by the Director of the Office of Management and Budget (OMB). For each
program and activity identified, the agency is required to produce a statistically valid estimate of the improper pay-
ments and include such estimates in the accompanying materials to the annual financial statements of the agency.
The agency is further required under IPERA to prepare a report on actions taken to reduce improper payments for
programs or activities with significant improper payments. With respect to improper payments identified in recovery
audits required by IPERA, the agency is required to report on all actions taken to recover improper payments.

In addition, guidance issued by the OMB specifies that each agency’s Inspector General should review agency im-
proper payment reporting in the agency’s annual Performance and Accountability Report (PAR) or Annual Financial
Report (AFR), and accompanying materials, to determine whether the agency complied with IPERA.

We determined that the NEH is compliant with IPERA concerning fiscal year 2011. Specifically, the agency pub-
lished a PAR for fiscal year 2011 and posted the report and accompanying materials required by OMB on the agency
website. NEH management conducted a risk assessment for improper payments in accordance with the steps outlined
in the revised OMB Circular A-123, Appendix C, Part I; and concluded that NEH programs and activities were not
susceptible to significant improper payment. This information was properly reported in the PAR. Furthermore, noth-
ing came to the attention of the OIG during fiscal year 2011that would indicate the agency is susceptible to significant
improper payments.

                            General Operating Support Grants: Cost-Share Inspection
                                       December 19, 2011; OIG-12-01 (I)

The General Operating Support Grant (GOSG) represents the major funding mechanism used by the NEH to support
state humanities councils (“Councils”). By law, the NEH cannot support more than fifty percent of the costs of a
Council’s activities. To document compliance, each Council must submit a final financial report demonstrating that
the Council’s share of expenditures equaled or exceeded the NEH award amount. The OIG completed an inspection
of this process.

The objectives of our inspection were to:

1. Evaluate procedures used by NEH management to review the validity and allowability of the GOSG cost-share
   amounts reported by Councils.
2. Identify the underlying components of the total cost-share reported by Councils and determine if the regrantee
   cost-share amount represents a material portion of the total.
3. Obtain a supporting schedule that substantiates the total regrantee cost-share amount.
4. Evaluate the impact to Councils if a regrantee cost-share restriction is enforced.

Our inspection was conducted in accordance with the Quality Standards for Inspections, as issued by the President’s
Council on Integrity and Efficiency.




NEH OIG Semiannual Report                                    6                                            March 31, 2012
                                   AUDIT AND REVIEW ACTIVITIES

                                INTERNAL AUDITS/REVIEWS/INSPECTIONS (con’t.)

                            General Operating Support Grants: Cost-Share Inspection (con’t.)
                                           December 19, 2011; OIG-12-01 (I)

 We determined that the NEH relies upon the Councils’ annual Single Audits, which are conducted by non-Federal audi-
 tors, to verify the validity and allowability of the underlying cost-share transactions. All ten Councils included in our
 sample self-reported that they met the required cost-share, and in most cases, the Councils relied heavily upon the re-
 grantee cost-share component to fulfill this requirement. Furthermore, all Councils included in our sample reported
 regrantee cost-share amounts in excess of 200 percent for many individual grants.

 Since the NEH allows and/or encourages Councils’ use of regrantee cost-share as a means of fulfilling the legislated
 cost-share requirement, we recommended that consistent treatment (i.e., establishing a cap) should apply to both cash
 contributions raised by a regrantee and unreimbursed allowable expenditures incurred by a regrantee for council-
 supported projects. Currently, the NEH has only established a cap on the amount of cash contributions raised by a re-
 grantee that a Council may certify for matching purposes. However, NEH guidance is currently silent on any regrantee
 cost-share limitation.

 NEH management has not formally responded to our recommendation.

                                                   EXTERNAL AUDIT

                                       Limited Audit — Filmmakers Collaborative
                                           January 10, 2012; OIG-12-01 (EA)

 We performed a limited audit of the Filmmakers Collaborative’s (the “Collaborative”) records as they relate to NEH
 grant TR-50093-09. The Collaborative submitted a final financial report to the NEH and conveyed that the related ex-
 penditures conform to the intended grant purpose, as stipulated in the individual NEH grant award. The principal ob-
 jectives of our limited audit were to determine that (1) grant expenditures were made in accordance with applicable pro-
 visions of NEH’s General Terms and Conditions for Awards to Organizations, NEH’s guide entitled America’s Media
 Makers: Production Grants, and the terms of the approved grant award; (2) the Collaborative properly implemented a
 comprehensive subrecipient monitoring program; and (3) proper controls over the use of Federal funds exist in accord-
 ance with minimum standards prescribed in OMB Circulars A-110 (2 CFR Part 215) and A-122 (2 CFR Part 230). Our
 review was conducted in accordance with Generally Accepted Government Auditing Standards (GAGAS).

 Several deficiencies and questioned costs were identified, as follows:

    The approved budget exceeded actual project costs by almost $54,000; however, none of the cost savings were
      shared with the NEH and the related accounting system did not properly identify project expenditures by funding
      source.

    NEH policy guidelines concerning fees associated with grantee-owned equipment and facilities were not followed,
      resulting in questioned costs approximating $7,300.

    Procurement and suspension/debarment rules mandated by OMB Circular A-110 and NEH General Terms and
      Conditions for Awards to Organizations were not followed by the subrecipient.

    The Collaborative did not identify a material internal control weakness relating to the subrecipient.



NEH OIG Semiannual Report                                     7                                               March 31, 2012
                                  AUDIT AND REVIEW ACTIVITIES

                                              EXTERNAL AUDIT (con’t.)

                                 Limited Audit — Filmmakers Collaborative (con’t.)
                                         January 10, 2012; OIG-12-01 (EA)

 Although the Collaborative did not specifically track project expenditures by funding source, as required by the OMB
 circulars, and the cumulative project funding (from all sources) was not spent, we accepted the grantee’s argument that
 the NEH funds were fully expended, based upon additional analysis of the detailed transaction activity, (first-in, first-
 out methodology). The remaining OIG findings have been resolved, and the Collaborative is actively implementing
 new procedures to address the subrecipient monitoring deficiencies identified.

                                  PRE-AWARD ACCOUNTING SYSTEM SURVEY

                                          The Dr. Haing S. Ngor Foundation
                                                  Santa Monica, CA
                                          February 10, 2012; OIG-12-01 (TS)

 We conducted a pre-award accounting system survey of The Dr. Haing S. Ngor Foundation (the “Foundation”). The
 objective of our survey was to obtain information to determine the adequacy of the organization’s accounting system,
 management controls, and policies and procedures designed to administer NEH grant funds. We concluded that the
 Foundation’s recently upgraded accounting system, management controls, Governance oversight, and formalized poli-
 cies/procedures will allow the organization to sufficiently manage and account for NEH grant funds. However, we
 identified several specific areas, in which existing financial management controls could be improved. We also identi-
 fied a potential cash flow issue that warrants further scrutiny and continuous monitoring by NEH management. We
 advised that the Foundation’s liquidity situation should be actively monitored by NEH management and the inclusion
 of certain safeguards in the approved grant award (especially a subsequent production grant) should be considered, as
 suggested by OMB Circular A-110, Subpart B, Paragraph .14, Special award conditions.

 We obtained written assurances from the principals of the organization that they will abide by the terms of the NEH
 award.
                                                 DESK REVIEWS

                            Desk Review Letters Concerning OMB Circular A-133 Provision
                                          Applicable to Endowment Funds

 OMB Circular A-133, Section 205(e) provides that the cumulative balance of Federal awards for endowment funds are
 considered awards expended in each year in which the funds are still restricted. We identified recipients of active NEH
 challenge grants supporting the creation of endowments and assessed the extent of each recipient’s compliance with the
 special provision. We issued a letter to each recipient, as appropriate, noting current conditions of noncompliance or
 the pending applicability of the special provision based on future Federal support related to their challenge grant. Let-
 ters were issued to the following recipients of NEH challenge grants:

          American Council of Learned Societies            OIG-12-01 (DR)           01/17/2012
          Chemical Heritage Foundation                     OIG-12-02 (DR)           01/17/2012
          Minneapolis Institute of Arts                    OIG-12-03 (DR)           01/17/2012
          New Bedford Whaling Museum                       OIG-12-04 (DR)           01/17/2012
          Southern Ute Cultural Center and Museum          OIG-12-05 (DR)           01/17/2012
          Walters Art Museum                               OIG-12-06 (DR)           01/17/2012
          Yakima Valley Museum                             OIG-12-07 (DR)           01/17/2012


NEH OIG Semiannual Report                                    8                                             March 31, 2012
                                 AUDIT AND REVIEW ACTIVITIES

                                               DESK REVIEWS (con’t.)

                                          OMB Circular A-133 Audit Reports

   OMB Circular A-133 establishes audit requirements for state and local governments, colleges and universities, and
   non-profit organizations receiving Federal awards. Covered entities, as defined by the Circular, that expend $500,000
   or more a year in Federal awards must obtain an annual organization-wide audit that includes the entity’s financial
   statements and compliance with Federal award requirements. The audits are conducted by non-Federal auditors, such
   as public accounting firms and state auditors.

   During the reporting period, we issued ten (10) letters communicating the results of our desk reviews of OMB Circu-
   lar A-133 audit reports. The objectives of the desk reviews were to: (1) determine whether the audit reports are
   acceptable under the reporting requirements of OMB Circular A-133; (2) identify any quality issues that may warrant
   follow-up work and/or revisions to the audit report; (3) identify audits for potential Quality Control Reviews (QCR)
   of the independent auditors’ workpapers; and (4) identify issues that may require the attention of NEH management.
   We used the Guide for Desk Reviews of OMB Circular A-133 Audit Reports, issued by the Council of Inspectors Gen-
   eral on Integrity and Efficiency (CIGIE), to determine if the reports were in conformance with the core reporting
   requirements stipulated by OMB Circular A-133.

   We determined that four (4) reports were acceptable and six (6) reports were acceptable with deficiencies. A recur-
   ring deficiency noted during our desk reviews concerned the lack of disclosure of subrecipient awards in the Schedule
   of Expenditures of Federal Awards, as required by OMB Circular A-133.310(b)(5).


                                           QUALITY CONTROL REVIEW

                                        Quality Control Review of KPMG LLP
                                        FY 2010 Single Audit of the Asia Society

   We performed a quality control review of the KPMG (the “IPA”) single audit and supporting working papers for the
   fiscal year ended June 30, 2010 audit of the Asia Society and Museum. The purpose of our review was to determine
   whether the audit was conducted in accordance with auditing standards, and the auditing and reporting requirements
   promulgated by OMB Circular A-133, Audits of States, Local Governments, and Non-Profit Organizations.

   We concluded that the IPA generally met auditing standards and OMB Circular A-133 requirements. However, we
   (1) identified working paper documentation issues that required supplemental verbal explanation; and (2) encountered
   a professional difference of opinion concerning the reporting of a procurement, suspension/debarment compliance
   finding.

                                           SINGLE AUDIT ACT REVIEWS

   The OIG receives Single Audit reports directly from state and local government auditors and NEH grantees. We also
   receive communications from other Federal agencies regarding Single Audit findings, (primarily the Department of
   Health and Human Services) and we routinely perform queries of the Federal Audit Clearinghouse to determine the
   reporting of Single Audit findings applicable to NEH awards.

   During the reporting period ended March 31, 2012, we reviewed 26 OMB Circular A-133 audit reports. None of the
   reports contained findings that required action by NEH management.




NEH OIG Semiannual Report                                   9                                           March 31, 2012
                                  AUDIT AND REVIEW ACTIVITIES

                                    WORK IN PROGRESS (as of March 31, 2012)

    Limited Audit ~ Marquette Historical Society

    The principal objectives of this limited audit are to determine if (1) the gifts certified by the Marquette Histori-
    cal Society under NEH challenge grant CH-50604-09 are eligible to release Federal matching funds; (2) grant
    expenditures are made in accordance with applicable provisions of NEH’s General Terms and Conditions for
    Awards to Organizations and the approved challenge grant budget; and (3) construction work complied with
    Davis-Bacon Act requirements.

    Limited Audit ~ University of California Press Foundation

    The principal objectives of this limited audit are to determine if (1) the gifts certified by the University of Cali-
    fornia Press Foundation under NEH challenge grant CH-50213-06 are eligible to release Federal matching
    funds; (2) grant expenditures are made in accordance with applicable provisions of NEH’s General Terms and
    Conditions for Awards to Organizations and the approved challenge grant budget; and (3) proper controls over
    the use of the endowment funds and the related earnings exist.

    Limited Audit ~ Southeastern Library Network and Lyrasis

    The principal objectives of this limited audit are to determine that 1) expenditures related to NEH grant PE-
    50012-08 were made in accordance with applicable provisions of NEH’s General Terms and Conditions for
    Awards to Organizations, NEH’s Preservation and Access Education and Training guidelines, and the terms of
    the approved grant award; 2) the grantee properly tracked and met the anticipated cost-sharing associated with
    the grant; and 3) proper controls over the use of the Federal funds existed in accordance with minimum stand-
    ards prescribed in the OMB Circulars A-110 (2 CFR part 215) and A-122 (2 CFR Part 230).

    Limited Audit ~ Asia Society

    The Asia Society (the “Society”) underwent an OMB Circular A-133 audit (Single Audit) for fiscal year ended
    June 30, 2010. The audited Schedule of Expenditures of Federal Awards (SEFA) for FY 2010 reported ex-
    penditures related to NEH grant GI-50066-09 equal to the full award amount ($1,000,000). As the Federal
    oversight agency, we conducted a Quality Control Review (QCR) of the FY 2010 Single Audit. The QCR re-
    sults raised questions in two areas and we planned a limited audit to expand testing in those areas. The objec-
    tives of the limited audit are to determine 1) if the Society’s procurement policies and procedures are sufficient
    to ensure compliance with Federal procurement, suspension/debarment compliance standards; and 2) whether
    the filmmaker’s expenses, as charged to the NEH grant, are allowable and were expended in accordance with
    grant objectives, OMB cost circulars, and the approved budget.

    Inspection ~ Grant Application In-take Process and Panel Development Process

    For purposes of this inspection, activities of NEH program staff and management from receipt of a grant appli-
    cation to presentation of the application for peer review/evaluation represent the grant application in-take
    process. The objectives of this inspection are to determine: (1) how applications are screened for eligibility and
    completeness, and when this screening takes place; (2) the scope of the review of draft proposals by NEH
    program staff and the criteria used during the review; (3) the extent of conformity to established guidance per-
    taining to the review of draft proposals; (4) the extent that program officials use agency guidance, NEH Princi-
    ples and Considerations for Recruiting Panelists, when a panel is put together; and (5) the existence of any
    division/office-specific guidance on panel recruitment and/or composition, and the extent of its use.



NEH OIG Semiannual Report                                      10                                            March 31, 2012
                                   INVESTIGATIVE ACTIVITIES

                                                  BACKGROUND
  The Inspector General Act provides the authority for the Office of Inspector General to investigate possible vio-
  lations of criminal or civil laws, administrative regulations, and agency policies, which impact the programs and
  operations of the NEH. The OIG Hotline, e-mail address, and regular mail are efficient and effective means of
  receiving allegations or complaints from employees, grantees, contractors, and the general public. We have
  obtained assistance from other OIGs, the Federal Bureau of Investigation (FBI), the Postal Inspection Service,
  and other investigative entities in the past.

  When the OIG receives a complaint or allegation of a criminal or administrative violation, we make a determi-
  nation of the appropriate action to take. The decision could result in the initiation of an audit or an investiga-
  tion; a referral to another NEH office/division or another Federal agency; or no further action. When we deter-
  mine that a case involves a crime, we will ask the Federal Bureau of Investigations (FBI), another Federal
  Inspector General, or the United States Department of Justice for assistance.

  During the past several years, the OIG has frequently received Hotline contacts and did not have sufficient
  resources to complete the inquiry or investigation in a timely manner. Therefore, to remedy this problem, we
  have been inquiring of other OIGs concerning their willingness and ability to assist us on an “as needed” basis
  under a reimbursable agreement. Several OIGs responded they would consider performing work for us on a
  case-by-case basis, depending on the availability of their staff. However, this assistance would be for criminal
  cases only and we have no guarantee that the OIGs would have staff available when needed.

                                           OPEN AT OCTOBER 1, 2011

  One matter was open as of October 1, 2011, which remains open as of the end of this reporting period.


                   CONTACTS DURING THE SIX-MONTH PERIOD ENDED MARCH 31, 2012

  We received nine (9) contacts during the current reporting period.

  One contact concerned allegations that the outreach activities conducted by a particular state humanities council
  are limited and ineffective and that regrant awards are typically made to entities on a recurring basis and to enti-
  ties with which Board members have close relationships. This matter remains open.

  One contact was forwarded from the Government Accountability Office (GAO) FraudNet. The complaint con-
  cerned comments made by a recipient of an NEH fellowship award asserting non-performance of research re-
  quired by the fellowship award. An investigation is currently being planned. This matter remains open.

  One contact was initiated by an NEH grantee upon discovering a financial irregularity impacting an endowment
  supported by an NEH challenge grant. The extent of the impact is still being determined. This matter remains
  open.

  One contact concerned the denial of an individual’s request for emergency assistance from the Social Security
  Administration (SSA). This matter was referred to the SSA-OIG.

  Five contacts concerned matters that lacked sufficient attributes of criminal or administrative violations impacting
  the programs and operations of the NEH.




NEH OIG Semiannual Report                                   11                                          March 31, 2012
                                        INVESTIGATIVE ACTIVITIES

                                            OPEN AT MARCH 31, 2012

       Four matters are open as of March 31, 2012.


                            MATTERS REFERRED TO PROSECUTIVE AUTHORITIES

       No matters were referred to the U.S. Department of Justice during this period.


                                    HOTLINE AND PREVENTION ACTIVITIES

      We maintain a toll-free Hotline number, an agency e-mail address, and an internet address to provide addi-
      tional confidentiality for individuals bringing matters to the attention of the OIG. We periodically issue
      agency-wide e-mail messages informing NEH staff of violations that are reportable to the OIG. We also
      send e-mail messages several times during the year to inform NEH staff about the OIG operations. Posters
      advising staff to contact the OIG are displayed throughout the agency’s facilities.

      An OIG staff person also makes a brief presentation during meetings convened by NEH program manage-
      ment involving project directors of new awardees. The presentations include an overview of OIG operations
      (including the OIG Hotline) and emphasize the importance of the recipients’ efforts to understand the admin-
      istrative requirements and specific terms and conditions applicable to their respective awards.



                                      SUMMARY OF INVESTIGATION ACTIVITY


                                          Open at beginning of period              1



                                       Matters brought to the OIG during
                                              the reporting period                 9



                                          Total investigative contacts            10

                                     Closed, referred, or no action deemed         6
                                             necessary during the
                                                reporting period

                                             Open at end of period                 4




NEH OIG Semiannual Report                                   12                                          March 31, 2012
                                              OTHER ACTIVITIES

                                REGULATORY AND LEGISLATIVE REVIEWS

The Inspector General Act of 1978, as amended, requires the Office of Inspector General to review proposed legisla-
tion and regulations. The reviews are to assess whether proposed legislation and/or regulations (1) affect the economy
and efficiency of agency programs and operations, and (2) contain adequate internal controls to prevent and detect
fraud and abuse. During this period, OIG staff reviewed the Advanced Notice of Proposed Guidance published in the
Federal Register on February 28, 2012 by the OMB entitled, Reform of Federal Policies Relating to Grants and Co-
operative Agreements; Cost Principles and Administrative Requirements (Including Single Audit Act). We submitted
comments concerning the proposed reforms that were incorporated in the consolidated response drafted by the CIGIE
Grant Reform Working Group for consideration by OMB.

                                         WORKING WITH THE AGENCY

OIG staff attended various NEH meetings – panel meetings (where grant applications are reviewed by outside consult-
ants), pre-council meetings (where program staff discuss panel review results with the Chairman and his immediate
staff), and policy-group meetings. OIG staff may contribute to the discussions, but the OIG does not participate in pol-
icymaking.

The Deputy IG made a presentation about the mission, responsibilities, and activities of the NEH Office of Inspector
General and the OIG Hotline during meetings held at the NEH involving project directors in receipt of awards through
the Division of Education (NEH Landmarks of American History and Culture Workshops, NEH Summer Seminars and
Institutes for 2012, and NEH Humanities Initiatives at Historically Black Colleges and Universities, Institutions with
High Hispanic Enrollment, and Tribal Colleges and Universities).

The Deputy IG also participated with the Chairman, program staff, and grant management staff in the 2011 National
Humanities Conference sponsored by the Federation of State Humanities Councils. The Deputy IG was subsequently
invited by the Federation of State Humanities Councils to conduct a webinar, wherein information presented during the
2011 National Humanities Conference was re-presented for access by Council staff/Board members that were unable
to attend the 2011 Conference.


                        PARTICIPATION ON THE COUNCIL OF INSPECTORS GENERAL
                                    ON INTEGRITY AND EFFICIENCY

The Inspector General Reform Act of 2008 (Public Law 110-409), amended the Inspector General Act of 1978 and
established the Council of Inspectors General on Integrity and Efficiency (CIGIE). The CIGIE is comprised of all
Inspectors General whose offices are established by the Inspector General Act of 1978 (and subsequent amendments)
— those that are Presidentially-appointed/Senate-confirmed and those that are appointed by agency heads (Designated
Federal Entities). During the reporting period ending March 31, 2012, the Deputy IG regularly attended monthly
CIGIE meetings (and provided input, as requested), bi-monthly meetings of the Federal Audit Executive Council
(FAEC), and bi-monthly meetings of a recently established sub-group of the CIGIE representing the “Smaller OIGs”.
A staff auditor participated in the Single Audit Roundtable held in November 2011.


                                      INTRA-GOVERNMENTAL ACTIVITY

Collaboration with the National Science Foundation ~ Office of Inspector General

OIG staff is participating in a joint investigative effort concerning a major media grantee. The joint effort involves IG
staff from three (3) Federal agencies. NSF ~ OIG is leading the investigation.


NEH OIG Semiannual Report                                  13                                            March 31, 2012
                                                      OTHER ACTIVITIES

                                                OIG INTERNET AND INTRANET

  The OIG has posted several audit/review reports and semiannual reports on the internet and on the NEH intranet.
  The reports are accessible through the NEH homepage and the OIG homepage (http://www.neh.gov/whoweare/
  OIG.html).

  To advance NEH staff awareness and understanding of the OIG mission and responsibilities, we provide hyper-
  links to several other Federal agencies such as the Office of Management and Budget, the Government Accounta-
  bility Office, the Office of Government Ethics, and the IGNET website.

                                                    TECHNICAL ASSISTANCE

  Throughout the reporting period, OIG staff provided technical help to NEH staff, grantees, and independent public
  accountants about various matters. We are generally consulted about matters related to the implementation of the
  audit requirements of OMB Circular A-133. OIG staff also provided technical assistance to the NEH Office of
  Grant Management (OGM) related to “Organizational Survey” submissions requested and reviewed by OGM staff.
                                      “AUDIT READINESS” AWARENESS CAMPAIGN

  The OIG executes an “Audit Readiness” awareness campaign via e-mail. The objective of the campaign is to distrib-
  ute guidance that would assist recipients of NEH grants in their efforts to preclude unfavorable outcomes should the
  organizations’ NEH grants be selected for audit. The e-mail communication emphasizes the importance of the each
  recipient’s review of and adherence to the specific NEH grant terms and conditions and the administrative require-
  ments applicable to all Federal awards. We remind recipients that they are stewards of Federal funds and therefore
  must comply with the OMB circulars and the terms and conditions of their grant awards. Highlighted in the commu-
  nications are specific areas wherein problems are commonly found during audits of NEH grantees and hyperlinks to
  appropriate guidance materials and resources. We also discuss the importance of effective internal controls. The
  e-mail communications are sent directly to project directors and grant administrators identified for all non-profit
  awardees.

  During the reporting period ending March 31, 2012, e-mail communications were sent as noted below. We have rea-
  sonable assurance that all of the awardees received a copy of the communication.


                   NEH Office or Division                  Number of Awardees                Number of E-Mails Sent*
              Division of Public Programs                               41                                    68
              Division of Preservation and
              Access                                                    10                                    18
              Office of Challenge Grants                                6                                     12
              Office of Digital Humanities                              8                                     16
              Division of Education Programs                            19                                    35
              Division of Research Programs                             4                                      8


           *There were several instances where either the project director and the grant administrator were the same or we did not
            have any contact information for an individual.




NEH OIG Semiannual Report                                             14                                                     March 31, 2012
                                                       TABLE I

                                  REPORTING REQUIREMENTS


       The Inspector General Act of 1978, as amended (Public Law 100-504), specifies reporting requirements for
       semiannual reports. The requirements are listed and cross-referenced to the applicable pages in this report.


       IG Act Reference                           Reporting Requirements                                  Page

       Section 4(a)(2)            Regulatory and Legislative Reviews………………………………                           13

       Section 5(a)(1)            Significant Problems, Abuses, and Deficiencies………………..…                  .*

       Section 5(a)(2)            Recommendations for Corrective Action …………………………                         .*

       Section 5(a)(3)            Prior Significant Recommendations Unimplemented…………..…                    *

       Section 5(a)(4)            Matters Referred to Prosecutive Authorities………………………                      12

       Section 5(a)(5)            Instances Where Information Was Refused or Not Provided……..              *

       Section 5(a)(6)            List of Reports Issued………..…………………………………….                              3-4

       Section 5(a)(7)            Summary of Reports Issued.……………………………………….                              5-9

       Section 5(a)(8)            Audit Reports - Questioned Costs….………………………………                           16

       Section 5(a)(9)            Audit Report - Funds To Be Put to Better Use.…….……………...                 16

       Section 5(a)(10)           Prior Audit Reports Unresolved……………………………………                              *

       Section 5(a)(11)           Significant Revised Management Decisions……………………….                        *

       Section 5(a)(12)           Significant Management Decisions with which OIG Disagreed…..              *

       Section 5(a)(14-16)        Peer Review Results………………………………………………. Appendix A


        * None this period




NEH OIG Semiannual Report                                        15                                             March 31, 2012
                                                      TABLE II
                                         INSPECTOR GENERAL-ISSUED REPORTS
                                               WITH QUESTIONED COSTS


                                                                               Number     Questioned   Unsupported
                                                                             Of Reports    Cost          Cost
         A. For which no management decision has been made by the                  -1-     $33,294        $-0-
            commencement of the reporting period.

         B. Which were issued during the reporting period.                         -1-     $ 6,667        $-0-

                                     Subtotals (A+B)                               -2-     $39,961        $-0-

         C. For which a management decision was made during
            the reporting period.

                  i.    Dollar value of disallowed costs.                          -1-     $ 6,667        $ -0-

                  ii.   Dollar value of costs not disallowed                       -0-     $ -0-          $ -0-

                  iii. Dollar value of costs not disallowed based on the           -0-     $ -0-          $ -0-
                       “Value of Services Received.”


         D. For which no management decision has been made by the                  -0-     $ -0-          $ -0-
            end of the reporting period.

         E. Reports for which no management decision was made within               -1-     $ 33,294       $ -0-
            six months of issuance.




                                                    TABLE III
                                        INSPECTOR GENERAL-ISSUED REPORTS
                               WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
                                                                                                  Number       Dollar
                                                                                                  Of Reports   Value


         A. For which no management decision has been made by the commencement                         -0-     $-0-
            of the reporting period.

         B. Which were issued during the reporting period.                                             -0-     $-0-

         C. For which a management decision was made during the reporting period.                      -0-     $-0-

                  i. Dollar value of recommendations that were agreed to by management.                        $-0-

                  ii. Dollar value of recommendations that were not agreed to by                               $-0-
                      management.

         D. For which no management decision was made by the end of the reporting period.              -0-     $-0-




NEH OIG Semiannual Report                                      16                                         March 31, 2012
                            GLOSSARY OF AUDIT TERMINOLOGY


        Questioned Cost - A cost that is questioned by the OIG because of an alleged violation of a provision
        of a law, regulation, contract, grant, cooperative agreement, or other agreement or document
        governing the expenditure of funds; because such cost is not supported by adequate documentation; or
        because the expenditure of funds for the intended purpose is unnecessary or unreasonable.

        Unsupported Cost - A cost that is questioned because of the lack of adequate documentation at the
        time of the audit.

        Disallowed Cost - A questioned cost that management, in a management decision, has sustained or
        agreed should not be charged to the government.

        Funds Be Put To Better Use - Funds, which the OIG has disclosed in an audit report, that could be
        used more efficiently by reducing outlays, de-obligating program or operational funds, avoiding
        unnecessary expenditures, or taking other efficiency measures.

        Management Decision - The evaluation by management of the audit findings and recommendations
        and the issuance of a final decision by management concerning its response to such findings and
        recommendations.

        Final Action - The completion of all management actions, as described in a management decision,
        with respect to audit findings and recommendations. When management concludes no action is
        necessary, final action occurs when a management decision is made.

        Source: Excerpt from Section 106(d) of the Inspector General Act Amendments of 1988 (P.L. 100-
        504).




NEH OIG Semiannual Report                                  17                                       March 31, 2012
                                                                                        APPENDIX A

                                               PEER REVIEW RESULTS


       The following information is provided pursuant to the requirements of Section 989C of Public Law 111-203
       (July 21, 2010), the Dodd-Frank Wall Street Reform and Consumer Protection Act, amending the Inspector
       General Act of 1978 (the IG Act), 5 U.S.C. App. This appendix complies with Section 5(a)(14 - 16) of the IG
       Act of 1978, as amended.


       (14)(A) Peer Review of the Audit Function. On December 9, 2010, the U.S. Consumer Product Safety
       Commission (CPSC) issued a System Review Report on the audit organization of the NEH OIG in effect for
       the year ended March 31, 2010. The CPSC found that the system of quality control for the audit organization
       of the NEH OIG had been suitably designed and complied with to provide reasonable assurance of performing
       and reporting in conformity with applicable professional standards in all material respects. Federal audit
       organizations can receive a rating of pass, pass with deficiencies, or fail. The NEH OIG received a peer review
       rating of pass.

       ( 15 ) Outstanding Recommendations from any Peer Review of the NEH OIG. There are no outstanding
       recommendations from any peer review of the NEH OIG conducted by another Office of Inspector General
       that have not been fully implemented.

       ( 16 ) Peer Review Conducted by the NEH OIG. On January 27, 2011, the NEH OIG issued a System
       Review Report on the United States Capitol Police (USCP) Office of Inspector General audit organization in
       effect for the year ended September 30, 2010. We found that the system of quality control for the audit organi-
       zation of the USCP OIG had been suitably designed and complied with to provide USCP OIG with reasonable
       assurance of performing and reporting in conformity with applicable professional standards in all material
       respects. The USCP OIG received a peer review rating of pass.




NEH OIG Semiannual Report                                                                               March 31, 2012
